                        U.S. Department of Agriculture
                           Office of Inspector General




Procurement Oversight Audit of Construction
Contract Awarded by Agricultural Research
   Service to Veterans Construction, LLC




                                 Audit Report 02703-06-HQ
                                               August 2011
                         United States Department of Agriculture
                                 Office of Inspector General
                                  Washington, D.C. 20250




DATE:          August 22, 2011

AUDIT
NUMBER:        02703-06-HQ

TO:            Ed Knipling
               Administrator
               Agricultural Research Service

ATTN:          Michelle Garner
               Acting Director
               Financial Management Division

FROM:          Gil H. Harden /s/
               Assistant Inspector General
                 for Audit


SUBJECT:       Procurement Oversight Audit of Construction Contract Awarded by
               Agricultural Research Service to Veterans Construction, LLC.


Attached is a copy of the final report on the subject audit. On August 17, 2011, we were
notified by ARS that an exit conference was not necessary to discuss the subject draft audit
report. The findings noted in this report have been previously reported; therefore, no
recommendations were made. No further response for this audit is necessary.

If you have any questions, please contact me at (202) 720-6945 or have a member of your
staff contact Jane Bannon, Audit Director, IT Audit Operations and Departmental
Management, at (202) 720-7845.

Attachment

cc: (w/attachment)
Director, Planning and Accountability Division, OCFO
DATE:                     August 19, 2011

REPLY TO
ATTN OF:                  02703-06-HQ

TO:                       Jane A. Bannon
                          Audit Director
                          IT Audit Operations and Departmental Management
                          Department of Agriculture, Office of Inspector General

FROM:                     Regis & Associates, PC /s/

SUBJECT:         Procurement Oversight Audit of Construction Contract Awarded by Agricultural
                 Research Service to Veterans Construction, LLC.

The American Recovery and Reinvestment Act of 2009 (the Recovery Act), provided the
Department of Agriculture’s (USDA) Agricultural Research Service (ARS) with $176 million to
reduce the backlog of facilities critical deferred maintenance projects. On January 8, 2010, ARS
awarded a sole-source, negotiated, firm fixed price construction contract under the 8(a) Business
Development Program1 for $2,485,000 to Veterans Construction, LLC, to replace the chiller,
generator, and underground storage tank at the USDA Jean Mayer Human Nutrition Research
Center for Aging (HNRCA), located in Boston, Massachusetts. In addition to the initial contract
award, subsequent contract modifications were made that totaled $215,426, and increased the
contract amount to $2,700,426. ARS’ Facilities Division in Beltsville performed the
procurement activities and contract management functions including contract award, contractor
payment approval, and monitoring the contractor’s Recovery Act reporting. ARS’ Financial
Management Division (FMD) reported agency Recovery Act fund statistics on Recovery.gov
through SharePoint.2

In enacting the law, Congress emphasized the need for the Recovery Act to provide for
unprecedented levels of transparency and accountability, so that taxpayers know how, when, and
where tax dollars are being spent. To accomplish this objective, the Office of Management and
Budget (OMB) issued various implementing guidelines that require Federal agencies receiving
Recovery Act funds to post key information on Recovery.gov. In addition, agencies must submit
weekly updates, monthly financial status reports, award transaction data feeds, and an agency
Recovery Act plan to OMB and to the Recovery page of the agency’s website.

The Recovery Act also provided USDA’s Office of Inspector General (OIG) funding for
oversight and audits of USDA programs, grants, and activities funded by the Recovery Act.
OMB guidance states that OIGs will perform audits and inspections of their respective agencies’
processes for awarding, disbursing, and monitoring Recovery Act funds, to determine whether
safeguards exist for ensuring funds are used for their intended purposes.
1
  The Small Business Administration 8(a) Business Development Program was created to assist eligible small
disadvantaged business owners compete in the American economy through business development.
2
  SharePoint is an electronic database for USDA’s Recovery Act data collection.


                                                        1
To ensure that the transparency and accountability requirements of the Recovery Act are met,
USDA/OIG contracted with Regis & Associates, PC, to assist it in ensuring that ARS’
Recovery Act procurement activities are performed in accordance with Federal Acquisition
Regulation (FAR), OMB guidance, and Recovery Act requirements. This audit was performed
in accordance with generally accepted government auditing standards, and standards established
by the American Institute of Certified Public Accountants.

During this audit, we reviewed applicable laws and regulations pertaining to procurement
activities, contract oversight, and Recovery Act reporting. We also obtained and reviewed ARS’
organizational documents relating to management controls, policies, and procedures for the
procurement and contracting functions, financial management system, and other processes that
would ensure compliance with the Recovery Act.

The scope of this audit included a review of the justification for a sole-source acquisition;
processes for preparing and issuing the solicitation, contractor selection, contract price
determination, contract award, performance monitoring, and invoice processing and payments to
determine whether ARS followed departmental and agency policies and procedures, FAR, and
Recovery Act requirements. We performed procedures, as necessary, to determine whether the
procurement was based on fair and reasonable price estimates, that the contract was awarded to a
contractor with appropriate qualifications, and that processes were in place to ensure that the
contractor provided services/products in accordance with contract terms. We found that, ARS’
contracting staff, including the contracting officer, contracting specialist, and contracting
officer’s technical representative, were experienced and qualified to award and monitor the
contract and no issues were noted in these areas that would warrant reporting.

However, we identified four issues that were previously reported to ARS. We noted that ARS’
Facilities Division did not document the acquisition planning performed, request a legal review
of the solicitation, or properly publicize the rationale for awarding the contract on a sole-source,
non-competitive basis. During the course of our review of this contract, we also noted that ARS
was assessed a late payment fee due to a prompt payment issue.3

Finding 1: ARS’ Acquisition Planning Process Should be Formalized

During our audit, we reviewed the contract file for Veterans Construction, LLC to assess the
existence and adequacy of acquisition planning for the HNRCA contract. We noted there was no
formal, structured, and clearly communicated acquisition planning process developed, which
includes the establishment of thresholds for when a formal acquisition plan should be prepared.
We also noted that the contract file contained incomplete acquisition planning documentation.
Specifically, there was no evidence of any acquisition planning meetings that were conducted
prior to the release of the solicitation depicting how the overall approach for awarding the
procurement was established.


3
    These issues were previously reported to ARS in audit reports 02703-03-HQ and 02703-04-HQ.


                                                         2
FAR part 7, Acquisition Planning, requires agencies to perform acquisition planning in order to
ensure that the government meets its needs in the most effective, economical, and timely manner.
FAR 7.103, Agency Head Responsibilities, states that the agency head or designee shall prescribe
procedures for “establishing criteria and thresholds at which increasingly greater detail and
formality in the planning process is required as the acquisition becomes more complex and
costly, specifying those cases in which a written plan shall be prepared.” Additionally,
Agriculture’s Acquisition Regulation (AGAR)4 states that the Head of Contracting Activity5
(HCA) shall develop procedures to comply with FAR part 7.103.

The conditions noted above resulted because acquisition planning guidance was not provided to,
or implemented in, ARS’ procurement function. Specifically, it was noted that ARS’ Head of
Contracting Activity had not issued procedural guidance on how to implement FAR part 7,
Acquisition Planning; as mandated by AGAR 48 CFR Chapter 4, part 407(1)(103). ARS' HCA
stated that ARS’ HCA's office had not prescribed the required procedure because he felt that the
guidance first needs to be developed at the departmental (USDA) level. ARS' HCA would issue
acquisition planning procedures for use in ARS based on departmental policy guidance.
However, we determined that ARS’ HCA should have issued acquisition planning procedural
guidance to ARS Facilities Division, with or without departmental (USDA) policy guidance.
AGAR part 402.101 defines the HCA who has the responsibility for issuing the acquisition
planning guidance; it states that, “the Head of Contracting Activity means the official who has
overall responsibility for the contracting activity (i.e., Chief, Forest Service; Administrator,
Agricultural Research Service; etc), or the individual designated by such an official to carry out
the functions of the HCA.”

As a result of not utilizing a formal, structured, and clearly communicated acquisition planning
process, which includes the establishment of thresholds defining when a formal acquisition plan
should be prepared, there is an increased risk that ARS may not meet its procurement needs in
the most effective, economical, and timely manner. There is also the risk that decisions and
actions may not reflect sound business judgment that protects the government’s interests.
Furthermore, there is the risk that in the absence of a structured and clearly communicated
acquisition planning process, appropriate agency oversight may not occur at critical decision
points, such as approval of decisions taken at the initial planning meeting, major changes to the
acquisition strategy during the procurement process, and the development of government
estimates.

We are not making any new recommendations at this time because this issue was noted in a
previous contract review. We recommended that ARS’ HCA issue procedural guidance
regarding acquisition planning and ARS’ Facilities Division should implement the procedural
guidance issued by ARS’ HCA. ARS officials took exception to our recommendations regarding
issuance and implementation of acquisition planning guidance. ARS believed that the
4
  48 CFR Chapter 4, part 407 (1) (103).
5
  AGAR part 402.101 states that the Head of Contracting Activity means the official who has overall responsibility
for managing the contracting activity (i.e. Chief, Forest Service; Administrator, Agricultural Research Service; etc)
or the individual designated by such an official to carry out the functions of the HCA.



                                                           3
Department should issue the procedural guidance. We are working with ARS to reach
agreement on the corrective actions needed to address our recommendations.

Finding 2: Legal Review Procedures for Contract Actions Were Not Performed

USDA’s Departmental Regulation, DR 5000-4, Legal Review of Contractual Actions, establishes
procedures for determining when to request a legal review of contractual actions. The regulation
requires the legal review of solicitations for negotiated contracts that are expected to exceed
$500,000. Also, the Internal Control Plan6 for the Research, Education, and Economics (REE)7
Acquisition Program states that legal reviews are required for all actions identified in DR 5000-4
to ensure legal sufficiency of the solicitation and contract award documents.

The HNRCA repairs project was a sole source, negotiated contract, awarded at an initial contract
price of $2,485,000, and legal review procedures should have been performed. ARS’ Facilities
Division did not request a legal review of the solicitation. We noted that ARS had sent a
solicitation boilerplate, which did not contain contract specific data, to the Office of General
Counsel (OGC) for review in February 2009, and OGC did not send any review comments or
recommendations. ARS concluded that a legal review was not necessary because no review
comments were received from OGC regarding the boilerplate. However, we determined even if
a legal review was done on the boilerplate solicitation, ARS should have had a legal review of
the solicitation, which contained the contract specific data. Also, ARS should follow up with
OGC if no response is received to ensure there are no legal issues.

An ARS’ Facilities Division Contracting Officer stated that prior to awarding the contract, a
determination was made that a legal review was not necessary. The Contracting Officer further
stated that the determination not to seek legal review was based on the solicitation document’s
format and language presented to OGC in February 2009. No response was received from OGC.
Also, the Contracting Officer believes that the contract requirements for this project were typical
of the construction work repetitively procured by the Facilities Contracts Branch, and that there
were no complex legal issues to be considered.

As a result of not performing a legal review of the solicitation, ARS could be exposed to
unintended legal consequences related to the contract. Also, ARS is not in compliance with the
Department’s regulation and its own guidance, which is designed to protect it from legal risks.

We are not making a recommendation at this time, because this issue was noted in a previous
contract review. We recommended that ARS should request and obtain a legal review of
solicitations, with project specific data, for negotiated contracts that are expected to exceed
$500,000. ARS officials agreed with our recommendation.


6
  The Internal Control Plan specifies procedures that are to be followed at each step of the procurement process,
assuring that procurement policy objectives are being met and that quality standards are being upheld.
7
  REE is the USDA mission area that provides oversight and guidance to its agencies which include ARS, the
National Institute of Food and Agriculture, the Economic Research Service, and the National Agricultural Statistics
Service.


                                                          4
Finding 3: The Rationale for a Non-Competitive Contract Award Was Not Included in
Contract Award Publication on FedBizOpps.gov

ARS publicized the contract post-award notice on FedBizOpps.gov. However, it did not indicate
that the contract was awarded on a sole-source basis, and it did not include the rationale for using
a non-competitive approach in awarding the contract.

According to FAR 5.705(b), Publicizing Post-Award, if a contract action is not both fixed-priced
and competitively awarded, the agency is required to publicize the award notice and include the
rationale for using other than a fixed-priced and/or competitive approach in the description.
These guidelines further state that when a contract or order is awarded pursuant to a small
business contracting authority (e.g., 8(a) Business Development Program), the rationale for not
using competition must be included in the award notice.

The Contracting Officer stated that he thought the documentation of the rationale was not
required for contracts awarded under the SBA 8(a) Business Development Program, since the
non-competitive approach was authorized by statute, for contracts under $3.5 million. However,
we determined that the Contacting Officer should have included the rationale for awarding the
contract on a sole-source basis in the post-award publication, as required by FAR 5.705(b).

By excluding the rationale for not using competition for this contract, awarded pursuant to
SBA’s 8(a) Business Development Program, the Recovery Act’s requirements for enhanced
transparency in the contracting process to the public was impaired. ARS’ rationale for awarding
the contract as sole source was justified. However, they should have stated the reason for not
using competition on FedBizOpps.gov as required by FAR 5.705(b).

We are not making a new recommendation at this time, because this issue was noted in a
previous contract review. We recommended that ARS’ management should take the necessary
action to provide complete and timely reporting for Recovery Act contracts posted on
FedBizOpps.gov.

Finding 4: Contractor’s Invoice Was Not Paid Timely

At the completion of audit fieldwork, ARS’ Facilities Division had processed six contractor
invoices for payment totaling $2,700,426. However, we noted that one invoice, in the amount of
$60,610.50, was paid 20 days after the due date.

FAR Part 32.904(d)(i) states that, for construction contracts, the due date for progress payments
based on Contracting Officer’s approval of the estimated amount and value of work or services
performed, including payments for reaching milestones in any project, is 14 days after the
designated billing office receives a proper payment request.

A Financial Management Division official stated that the late payment was due to technical
difficulties that ARS experienced in payment processing, when it changed its accounting system



                                                 5
from the Foundation Financial Information System (FFIS) to the Financial Management
Modernization Initiative (FMMI).

As a result of not paying the vendor in a timely manner, ARS incurred and paid a late payment
interest penalty of $147.74.

We are not making a recommendation since ARS has resolved the technical difficulties it had in
payment processing by successfully changing its accounting system from FFIS to FMMI. We
reviewed subsequent contractor invoices and noted that they were all paid in a timely manner.




                                               6
